No. 19-1104
IN THE

Supreme Court of the United States
MARK JANUS,
v.

Petitioner,

AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
SUPPLEMENTAL BRIEF
FOR RESPONDENT AFSCME COUNCIL 31
JUDITH E. RIVLIN
TEAGUE P. PATERSON
AFSCME
1625 L Street N.W.
Washington, DC 20036
202.775.5900
MELISSA J. AUERBACH
STEPHEN A. YOKICH
DOWD, BLOCH, BENNETT,
CERVONE, AUERBACH &
YOKICH
8 S. Michigan Ave., 19th Fl.
Chicago, IL 60603
312.372.1361

JOHN M. WEST
(Counsel of Record)
LEON DAYAN
JACOB KARABELL
BREDHOFF & KAISER,
P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jwest@bredhoff.com

Counsel for Respondent AFSCME Council 31

1
SUPPLEMENTAL BRIEF
Bowing to the reality that the Petition on its face
does not satisfy the criteria that this Court uses to decide whether to grant certiorari, Petitioner, in his
Supplemental Brief, has changed course. He now
claims that the Third Circuit’s recent decision in Diamond v. Pennsylvania State Education Association, -F.3d --, 2020 WL 5084266 (3d Cir. Aug. 28, 2020),
“creat[es] a conflict” with the decisions of other circuits, Petitioner’s Suppl. Br. at 1, even though it
reaches the very same result as the Second, Sixth,
Seventh, and Ninth Circuit decisions. What creates
this supposed “conflict,” according to Petitioner, is
that the reasoning of one of the concurring judges in
Diamond differs from that of the other judges who
have written on this question.
There is, in fact, still no conflict that requires this
Court’s attention. As this Court often has stated, it
“reviews judgments, not opinions.” Chevron, U.S.A.,
Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837, 842
(1984); see also Stephen M. Shapiro et al., Supreme
Court Practice § 4.3, at 4-11 (11th ed. 2019) (“A genuine conflict . . . arises when it may be said with
confidence that two courts have decided the same legal issue in opposite ways, based on their holdings in
different cases with very similar facts.”). In Diamond,
the Third Circuit joined all four of the other courts of
appeals that have considered the issue presented by
this Petition in holding that unions sued under 42
U.S.C. § 1983 for agency fees assessed and collected
prior to this Court’s decision in Janus v. AFSCME
Council 31, 138 S. Ct. 2448 (2018), can assert a defense to monetary liability for following state law and
this Court’s precedent as it existed at the time of their
actions. That some judges have used different

2
reasoning to reach the identical result does not create
a conflict requiring this Court’s intervention. And, in
any case, Petitioner overstates the divergence among
the reasoning of the lower courts in these cases.
I. Diamond involved two of the numerous classaction lawsuits brought under § 1983 after Janus,
seeking monetary liability in the amount of agency
fees remitted to unions before that decision—i.e., at a
time when agency fees were expressly authorized by
state law and were constitutional under this Court’s
decision in Abood v. Detroit Board of Education, 431
U.S. 209 (1977). The respective district courts both
held—along with all other courts that have considered
the issue—that the defendant unions could not be
held liable under § 1983 for having acted in accordance with the law as it existed at the time. Diamond
v. Pa. State Educ. Ass’n, 399 F. Supp. 3d 361 (W.D. Pa.
2019); Wenzig v. SEIU Local 668, 426 F. Supp. 3d 88
(M.D. Pa. 2019).
The Third Circuit affirmed, with two separate
opinions making up the court’s majority. Judge Rendell voted to affirm on the basis of a prior Third
Circuit opinion, which had held, in the wake of this
Court’s decision in Wyatt v. Cole, 504 U.S. 158 (1992),
that “private defendants should not be held liable under § 1983 absent a showing of malice and evidence
that they either knew or should have known of the
statute’s constitutional infirmity.” Diamond, 2020 WL
5084266, at *5 (quoting Jordan v. Fox, Rothschild,
O’Brien & Frankel, 20 F.3d 1250, 1276 (3d Cir. 1994)).
She also concluded, in the alternative, that an analogy
to the common-law tort of abuse of process supported
the unions’ defense. Id. at *6 n.4.
Judge Fisher authored a concurring opinion. While
Judge Fisher disagreed with Judge Rendell’s view

3
that the Third Circuit’s Jordan decision was controlling, id. at *12, he concluded that the unions could
assert a defense to a § 1983 claim for monetary relief
in this circumstance because “[t]here was available in
1871, in both law and equity, a well-established defense to liability substantially similar to the liability
the unions face here,” id. at *8. Judge Phipps dissented, disagreeing that the common-law provided a
basis for such a good-faith defense. Id. at *17-20.
As is clear from the foregoing, the Third Circuit—
far from creating a conflict with the other courts of appeals—has now joined the Second, Sixth, Seventh,
and Ninth Circuits in holding that unions can assert
a defense to monetary liability under § 1983 for collecting agency fees in reliance on state statutes and
this Court’s Abood precedent. See Union Opp’n Br. 12
(citing cases). Diamond thus presents no reason for
this Court to grant certiorari in this case.
Undaunted, Petitioner argues that Diamond has
created a circuit-court conflict because, he asserts, “a
majority of the Third Circuit panel [Judges Fisher and
Phipps] rejected the good faith defense” that has been
recognized by the other courts of appeals. Petitioner’s
Suppl. Br. at 3.
There is no substance to this argument—only semantics. While Judge Fisher did not use the term
“good-faith defense,” this Court surely does not sit to
resolve differences in nomenclature. The result
reached by Judge Fisher is, on the facts presented by
this and the other post-Janus cases, no different from
the defense that the other courts of appeals have recognized—a defense to a claim under § 1983 for
monetary liability for unions that relied on state law
and this Court’s directly-on-point precedent that was
controlling at the time of their actions. The fact that

4
Judge Fisher relied on somewhat different reasoning—and, in particular, a different body of commonlaw authority—than the other courts to reach the
same result does not amount to a conflict requiring
this Court’s intervention. To the contrary, Judge
Fisher’s analysis simply identifies an additional rationale for the uniform result reached by the lower
courts.
II. Quite apart from that point, Petitioner overstates the divergence in reasoning between the Third
Circuit and the other courts. In particular, after citing
the courts of appeals that have analogized § 1983
agency-fee claims to the common-law tort of abuse of
process, Petitioner attempts to create discord by asserting that a majority of the Third Circuit “rejected
a . . . common law tort analogy.” Petitioner’s Suppl.
Br. at 3. That assertion is wrong. Judge Fisher expressly found it “unnecessary” to decide whether the
tort of abuse of process was sufficiently analogous to
the § 1983 claims here in order for that comparison to
serve as the basis for the unions’ defense, because he
found the defense amply supported by a separate body
of common-law authority. See 2020 WL 5084266, at
*13.
It thus remains the case, as we showed at pages
19-20 of our opposition brief, that those courts that
have addressed the issue are in agreement that—similar to this Court’s analysis in Wyatt—the commonlaw tort of abuse of process provides an appropriate
analogy to the § 1983 claim at issue here. See Ogle v.
Ohio Civil Serv. Emps. Ass’n, 951 F.3d 794, 797 (6th
Cir. 2020); Danielson v. Inslee, 945 F.3d 1096, 1102
(9th Cir. 2019); Pet App. 24a.

5
CONCLUSION
The Petition for Writ of Certiorari should be denied.
Respectfully submitted,
JUDITH E. RIVLIN
TEAGUE P. PATERSON
AMERICAN FEDERATION OF
STATE, COUNTY AND
MUNICIPAL EMPLOYEES
1625 L Street N.W.
Washington, DC 20036
202.775.5900
MELISSA J. AUERBACH
STEPHEN A. YOKICH
DOWD, BLOCH, BENNETT,
CERVONE, AUERBACH &
YOKICH
8 S. Michigan Ave., 19th Fl.
Chicago, IL 60603
312.372.1361

JOHN M. WEST
(Counsel of Record)
LEON DAYAN
JACOB KARABELL
BREDHOFF & KAISER,
P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jwest@bredhoff.com

Counsel for Respondent AFSCME Council 31
September 11, 2020

